HHS/OIG-Audit,"California Statewide Audit of Inpatient Hemodialysis Procedure Services,"(A-09-01-00068)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"California Statewide Audit of Inpatient Hemodialysis Procedure Services," (A-09-01-00068)
March 28, 2002
Complete
Text of Report is available in PDF format (2.80 MB). Copies can also
be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This audit report presents the results of our review of inpatient hemodialysis
procedure services provided to Medicare beneficiaries residing in the state
of California.  Based on a statistical sample of Medicare claims, we are
95 percent confident that at least $3,541,886 of the $22,214,841 paid to physicians
for Calendar Years 1998 and 1999 was ineligible for Medicare reimbursement.  We
recommended that the Centers for Medicare & Medicaid Services (CMS) develop
an education and monitoring program to reinforce the billing requirements for
hemodialysis procedures.  We also recommended  that CMS determine
if separate reviews for individual physicians or medical group are cost effective,
and, if so, perform additional reviews to recover the projected overpayments.